Philip S. Goldberg
1800 K Street NW
Suite 1000
Washington, D.C. 20006
t 202.783.8400
f 202.783.4211
pgoldberg@shb.com

February 19, 2021
Scott S. Harris, Esq., Chief Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re: Dantzler, Inc. et al. v. S2 Services Puerto Rico, LLC, et al.
Docket No. 20-1061
Dear Mr. Harris:
This firm represents Respondents S2 Services Puerto Rico, LLC and
Rapiscan Systems, Inc. in the above matter.

Pursuant to Rules 15.3 and 30.4, we request, on behalf of our client, that the
time to respond to the Petition for a Writ of Certiorari be extended 30 days to,
and including, April 5, 2021. The Petition was docketed on February 3, 2021.
Consequently, the Brief in Opposition must currently be filed by March 5,
2021. We have not previously requested an extension to file a Brief in
Opposition.
Counsel who will be preparing the brief are working remotely due to the
COVID-19 pandemic. Remote work has imposed a number of constraints on
counsel, including limited access to support staff and other resources, and
challenges accessing case files and documents, and consulting and
coordinating with co-counsel in Puerto Rico and our client in California. In
addition, counsel have conflicting briefing deadlines in other matters that
will impede our ability to fully and meaningfully review and respond to
issues raised in the Petition within the current deadline. For these reasons,
and because Petitioners were afforded 150 days to prepare the Petition, we
respectfully request additional time to prepare a Brief in Opposition which
adequately addresses all of the issues raised in the Petition.
On February 17, 2021, we communicated with Petitioners’ counsel, who
advised us they do not oppose this request. We also have been informed by
counsel for the other Respondent, the Puerto Rico Ports Authority, that they

ATLANTA | BOSTON | CHICAGO | DENVER | HOUSTON | KANSAS CITY | LO NDON | LOS ANGELES | MIAMI | NEW YORK |
ORANGE COUNTY | PHILADELPHIA | SAN FRANCISCO | SEATTLE | TAMPA | W ASHINGTON, D.C.

February 19, 2021
Page 2

intend to jointly request a 30-day extension to file a Brief in Opposition to the
Petition.
As indicated by the enclosed certificate of service, we have concurrently
served a copy of this letter upon counsel for the Petitioners, as well as counsel
for the other Respondent. We have electronically filed a copy of this letter
with the Court.
Thank you for your courtesy and prompt consideration of this request.
Sincerely,
/s/ Philip S. Goldberg
Philip S. Goldberg
For respondents S2 Services Puerto Rico, LLC
and Rapiscan Systems, Inc.

ATLANTA | BOSTON | CHICAGO | DENVER | HOUSTON | KANSAS CITY | LO NDON | LOS ANGELES | MIAMI | NEW YORK |
ORANGE COUNTY | PHILADELPHIA | SAN FRANCISCO | SEATTLE | TAMPA | W ASHINGTON, D.C.

